HHS/OIG, Audit - "Title IV-E Foster Care Administrative Costs Claimed by
Virginia on Behalf of Fairfax County From April 2002 Through March 2004,"
(A-03-04-00585)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Title IV-E Foster
Care Administrative Costs Claimed by Virginia on Behalf of Fairfax County From
April 2002 Through March 2004," (A-03-04-00585)
November 8, 2007
Complete
Text of Report is available in PDF format (436 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the State agency
claimed Title IV-E administrative costs for foster care candidates on behalf of
Fairfax County partners in accordance with Federal requirements.  The State
agency did not comply with Federal requirements when it claimed Title IV-E
administrative costs totaling $5,577,929 (Federal share) for foster care
candidates on behalf of Fairfax County partners.
We recommended that the State agency
refund $2,368,902 ($5,577,929 less $3,209,027 previously disallowed by the Administration
for Children and Family) in
unallowable Title IV-E administrative costs for foster care candidates claimed
by the State agency for Fairfax County partners for the period April 2002
through March 2004.
In its comments on our draft report, the State agency generally concurred with
our findings.